CERTIFICATE OF COMPLIANCE
Case No. Chabot v. APRI
Caption: 19-161
As required by Supreme Court Rule 33.l(h), I
certify that the document contains 12,867 words,
excluding the parts of the document that are
exempted by Supreme Court Rule 33.l(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on January 15, 2020.

Samantha Collins
Record Press, Inc.

Sworn to before me on
January 15, 2020
NADIA R. OSWALD HAMID
Notary Public, State of New York
No. 01086101366
Qualified in Kings County
Expires November 10 2023

